Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   STATE DENTAL BOARDS AND
       DENTAL DISCIPLINE




               AUGUST 1993
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECI’IONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector
General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region, Office of
Evaluation and Inspections. Participating in this project were the following people:

Boston                                                       Headquarters
Barry McCoy, Lead Analyst                                    Alan S. Levine
Theodore Wall, Program Analyst

For additional copies of this report, please contact the Boston regional office at 617/565-1050.
Department of Health and Human Services

        OFFICE OF
    NSPECTOR GENERAL




   STATE DENTAL BOARDS AND
       DENTAL DISCIPLINE




          AUGUST 1993   0EI-01-92-O0821
              EXECUTIVE                          SUMMARY


PURPOSE

To examine the capacity of State dental boards to carry out their disciplinary
responsibilities.


BACKGROUND

In a recent inspection, “The Licensure of Out-of-State Dentists (OEI-01-92-00820),” we
found that many State dental board officials had serious concerns about the capacity
of the boards to identify and respond to incompetent and/or unprofessional dentists.
They cited these concerns as a major basis for requiring out-of-State dentists to pass a
clinical licensure exam before granting them a license.

In this follow-up report, we identify and review indicators of boards’ capacity to carry
out their disciplinary responsibilities. We draw on data collected from a survey of the
boards as part of the above-noted inspection and on data available from published
sources.

FINDINGS

THERE ARE STRONG BASES FOR QUESTIONING THE CAPACITY OF
STATE DENTAL BOARDS TO CARRY OUT THEIR DISCIPLINARY
RESPONSIBILITIES.

They lack comprehensive     reporting laws which can help them identi& dentists
warranting investigation.

       .	     Twenty-nine of 48 reporting boards indicate that their States do not have
              laws mandating other parties to report to the board a dentist who may
              have violated the State dental practice act. In contrast, 47 States have
              mandated reporting laws for physicians.

       .	     Only 14 of the 48 boards indicate that their States require dentists to
              report to the board another dentist who may have violated the State
              practice act. Thirty-one States have such laws applying to physicians.

They make limited use of disciplirmy action clearinghouses.

       .	     In 1992, only 23 of 48 reporting boards requested information from
              the clearinghouse maintained by the American Association of Dental
              Examiners and only 19 from the one maintained by the National
              Practitioner Data Bank. Failure to obtain such information can


                                             i
              deprive boards of knowledge about prior actions involving dentists
              under investigation.

They discipline dentists to widely varying degrees and at a level somewhat less than
that of State medical boards.

       .	     During the September 1, 1990 to August 31, 1992 period, dental board
              disciplinary actions per 1,000 active dentists ranged from lows of O in
              Connecticut, Delaware, Kentucky, Hawaii, and Wyoming to highs of 23.2
              in Oregon, 15.0 in Alaska, 19.2 in Missouri, 13.5 in Maine, and 12.0 in
              Iowa.

              The median and average rates of disciplinary actions per 1,000 active
              dentists taken by dental boards during this period was 6.41 and 7.0. The
              comparable figures for medical boards were 6.65 and 8.94. Although
              this differential is not extensive, it is important to recognize that dental
              boards may be more vital quality assurance bodies for dentists than
              medical boards are for physicians. This is because dentists are much
              more likely to practice alone and much less likely to be subject to
              oversight by other external bodies, such as hospitals or health
              maintenance organizations.

They have insufficient resources to devote to investigations, particularly of complex
cases involving the quality of dental care rendered.

       .	     The American Association of Dental Examiners, the association of State
              dental boards, cites “the lack of sufficient funding as the principle reason
              for enforcement difficulties.”

       .	     Eighteen of 24 boards reporting that they have their own investigators
              indicate that caseloads have increased since 1989, but only 5 state that
              staffing levels have increased during the same period.

       .	     Twenty-three of 48 reporting boards indicate that they do not maintain
              an in-house computerized file incorporating data on prior complaints
              against a dentist. Thirty-one of them state the same in regard to data on
              settled malpractice claims.

CONCLUSION

The information presented in this report reinforces the concerns of many State dental
board officials about the capacity of the boards to carry out their disciplinary
responsibilities. But the significance of the information goes beyond whether or not
out-of-State dentists should be licensed by any given board. It suggests that many
boards may not be providing adequate protection to the consumers of dental services



                                            ii
and that they and the State governments of which they are a part would find it
constructive to focus on ways in which they could improve the capacity of the boards.

The PHS, through the Agency for Health Care Policy and Research or the Bureau of
Health Professions, could facilitate State efforts to improve the capacity of their dental
boards by extending financial support for the development of a self-assessment
instrument for the boards. The PHS has supported a similar effort for State medical
boards, with notable success.




                                            ...
                                            111
                          TABLE                     OF CONTENTS

                                                                                                                       PAGE


EXECUTIVE            SUMMARY


INTRODUCTION .              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


    � Renewal Fee Income . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


    � Consumer       Membership on Dental Boards                      . . . . . . . . . . . . . . . . . . . . . . . . . ...6


    � State   Mandatory Reporting Laws . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..7


    � Investigative     Staffing Levels . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8


    � Computerized         Information Systems               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9


    � Disciplinary     Action Clearinghouses               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


    � Disciplinary     Actions.        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


CONCLUSION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDIX


k     Endnotes       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l
                         INTRODUCTION


PURPOSE

To examine the capacity of State dental boards to carry out their disciplinary
responsibilities.

BACKGROUND

Prior Reports

In an August 1988 report, “State Licensure and Discipline of Dentists” (OAI-Ol-88-
00580), we raised concerns about how well State dental boards were carrying out their
disciplinary responsibilities. In an August 1993 report, ’’The Licensure of Out-of-State
Dentists” (OEI-01-92-00820), we reported that many board officials themselves were
raising such concerns and citing them as a major basis for requiring out-of-State
dentists to pass a clinical examination as a condition of licensure. These board
officials expressed serious reservations about the capacity and readiness of many
boards to identify and then respond to incompetent and/or unprofessional dentists.

Federal Interest

Given the primacy of the State role in licensing and disciplining dentists, it is
important to establish the bases for the Federal interest in the-capacity of State dental
boards. The most direct basis is the Medicaid program, under which the Federal
government now contributes about $1 billion a year for dental services.l It looks to
the boards to provide a vital front line of protection for the recipients of those
semices. It relies upon them to see that dentists meet the minimum necessary
qualifications to practice dentistry and to take disciplina~ action against them when
their conduct and/or practice warrant it.

But the Federal interest in boards also rests on the protection they provide to all
consumers of dental services, who, from various payment sources, are generating
annual expenditures of close to $40 billionz for services performed by about 145,00
dentists.3 To the extent that dental boards carry out their responsibilities effectively,
they contribute to the capacity of the dental profession to respond effectively to oral
diseases. The U.S. Public Health Service (PHS) has identified oral diseases as being
“among the most prominent in the United States”4 and has set forth many specific
objectives to reduce their incidence by the year 2000.5 These objectives could
become of even greater concern to the Federal government if some dental coverage is
included as a core benefit under a reformed national health care system.

Over the years, the PHS, through the Bureau of Health Professions, has taken a
number of actions to contribute to the development of dental (and other health care)
boards. In 1984, it funded the Council on Licensure, Enforcement and Regulation of


                                            1
the Council of State Governments to prepare a composite State-by-State information

system on dental and other health care boards. In 1989, it funded the American

Association of Dental Examiners (AADE), the association of State dental boards, to

help it convert its disciplinary action clearinghouse from a manual to a computerized

system. And, just recently, in 1993, it once again funded AADE, this time to facilitate

its efforts to develop criteria and mechanisms that State dental boards can use when

assessing the continued competency of dentists.


Finally, it is also important to recognize that PHS has an ongoing interest in State

dental boards because of its responsibilities for managing the National Practitioner

Data Bank (NPDB) established by the Health Care Quality Improvement Act of 1986.

Intended by Congress to facilitate improved credentialing activities by health care

institutions and licensing bodies, the NPDP serves as a clearinghouse of information

on disciplinary and adverse actions taken against health care practitioners. Among

health care licensing boards, only medical and dental boards are required to report all

their disciplinary actions to the NPDP.


METHODO~GY


In this report, we draw on data collected from our 1992 survey of State dental boards.

That survey was conducted primarily for our inspection on out-of-State dentists and

focused on questions addressing that topic. It included, however, a number of

questions addressing the disciplinary capacities of the State boards. In addition to

these data elements, we draw on data available in many published reports of the

American Association of Dental Examiners (AADE), the American Dental

Association (ADA), The Federation of State Medical Boards (FSMB), the American

Medical Association (AMA), and the National Practitioner Data Bank (NPDB).


We organize the report around seven key indicators of boards’ capacity to carry out

their disciplinary responsibilities. These are not the only such indicators, but they are

ones which we have found pertinent in our work over the past seven yearsG and in

our review of the literature on the licensure and discipline of the health care

occupations.7 They are also indicators for which we can present current and reliable

data. In each case, we present a brief statement indicating why the indicator is

pertinent to a board’s capacity to carry out its disciplinary responsibilities, a figure

revealing the key data, and brief explanatory text. Data was provided for the 50

States and the District of Columbia, hereafter referred to as States.


To facilitate interpretations of the data, we present them, where possible, in a manner

that allows for comparative assessments. We do this primarily by presenting trend

data for recent years. The actual time periods we use vary because of inconsistencies

in the data available.


We also allow for some comparative assessment by presenting parallel data, where

available, for State medical boards. Such boards ha;e the sa;; basic responsibilities

as dental boards. It is important to take into account, however, that dental boards



                                             2
may well be a more vital quality assurance overseer for dentists than medical boards
are for physicians. This is because dentists are less likely to be subject to oversight by
other bodies, such as hospitals, health maintenance organizations, Medicare-funded
Peer Review Organizations, and insurers.8

We conducted this study in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                             3

                                      FINDINGS


THERE ARE STRONG BASES FOR QUESTIONING THE CAPACITY OF
STATE DENTAL BOARDS TO CARRY OUT THEIR DISCIPLINARY
RESPONSIBILITIES.

There may be individual boards that have adequate capacity to carry out their
disciplinary responsibilities and that are performing effectively in this regard. But the
information we present on the following seven indicators raises serious questions about
the disciplinary capacity of most boards. These data support the reservations that
many State board officials themselves expressed to us during our inquiry on the
licensure of out-of-State dentists.

                                       Renewal Fee Income




             FIGURE 1: ANNUAL LICENSE RENEWAL FEES FOR
                DENTISTS AND PHYSICIANS, 1985 AND 1992
          1985
          MEDIAN

          FEE
                                                                   �...’... DENTISTS





          AVERAGE

          FEE



          1992

          MEDIAN
          FEE




          AVERAGE
          FEE


                     do         $25           $40         $75             $1’00         $125
                                                 ANNUAL FEE
                                                                    “ Qftileliafdth Qca@Qns and
          souroes Fordentists- Councilof StateGovernments,StatsRe@atmn
          &afQ&xw lQ4%8& Maroh1987 andOIG telephonesurvey,April1993. Forphysldans- American
          Madical Association,
                            LB MeslkalLbnaum ~      1985/19S6 and 1993 editions. N -51 Statsa.




                                                   4

The median renewal fee of dental boards has increased from $40 to $75 between 1985
and 1992, but it still lags that of medical boards, which increased from $50 to $100
during the same period (figure 1). In California, the State with the largest number of
licensed dentists, the 1992 dental board renewal fee was $120, compared with $250 for
the medical board. In New York, the State with the second largest number of licensed
dentists, the comparable fees were $70 and $165.

Aside from the level of the fees, it is important to recognize that the fee income often
is not reserved exclusively for the use of the dental board. This was the case for 17 of
the 48 States responding to the relevant question in our survey.

Thus, it appears quite possible that many boards are left with insufficient resources to
do their investigatory work. The American Association of Dental Examiners, the
association of State dental boards, acknowledged that such a deficiency does, in fact,
exist when in response to our prior report on out-of-State dentists, it commented that
“the lack of sufficient funding is the principle reason for enforcement difficulties.”




                                            5

                              Consumer Membership on Dental Boards�




              FIGURE 2: PUBLIC MEMBERSHIP OF STATE DENTAL

                    AND MEDICAL BOARDS, 1988 AND 1991

           1988
           DENTAL
           BOARDS                                                                Z   10% OR LESS

                                                                                 �   11-20%
           MEDICAL                                                               �   MORETHAN20%
           BOARDS


           1991
           DENTAL
           BOARDS



           MEDICAL
           BOARDS

                      A
        10      20       30       &                 50
                                NUMBER OF DENTAtJMEDICAL BOARDS
         Sourcw For dentists- AmericanAssociationof Dental Examiners,CompQMQ,1989 and 1992
         adiions. For physicians- Federationof State Medical Boards,Fxchange, 1989-1990 and
         1992-1993    editions. N -51 States. Note -we include only public members with full
         voting privileges.


In 1989, a broadly based task force of The Federation of State Medical Boards issued
an important report entitled “Elements of a Modern State Medical Board: A
Proposal.” Although it focuses on medical boards, it offers many suggestions
concerning board membership, structure, and operation that can also be highly
instructive to dental boards. One of those suggestions is that public or consumer
members should constitute 25 percent of a board’s membership.9

Even this modest benchmark is one which most medical and dental boards fall short
of meeting (figure 2). In fact, 15 dental boards have 10 percent or fewer consumer
members and 38 have 20 percent or fewer; the comparable numbers for medical
boards are 8 and 32.



                                                      6

                                  State Mandatoy         Repo&g       Luws�




                  o              10              20              30              4)                 5b
                                                  NUMBER OF STATES
        Sources For dentists- OIG mail survey, Fall 1992. For physicians- l%e Federation of State

        Medioal Boards, ExckngQ,1992 -1993 sdition. N =43 States.



Among 48 States for which we have comparative information, 47 have mandated
reporting laws for physicians, but only 19 have them for dentists (figure 3). Only 14 of
these States require individual dentists to report to the board other dentists who they
believe may be acting in an unprofessional manner or delivering substandard dental
care. Even fewer States require hospitals (13) or professional associations (7) to
report.

Given the relative lack of reporting laws and the fact that the great majority of
dentists practice alone, it can be quite difficult for State dental boards to identify
dentists responsible for poor practice or some wrongdoing. More so than State
medical boards, they are dependent on referrals made by individual consumers.
                                        Investigative Sta~g    Levei?s�




               FIGURE 4: CHANGES IN INVESTIGATIVE CASELOADS
               AND INVESTIGATOR STAFFING LEVELS AT STATE
                    DENTAL BOARDS, FROM 1989 TO 1992


                          0

        w
        a
        z
             LOWER
                                                                     II           CASELOADS



        <                                                                         STAFFING
        x
        u
        ,,            L         6




        a
        5
             HIGHER



                      I                                                                       ,
                      0             5             10           15            20              25
                                                NUMBEROFBOARDS
         Source: OIGmail survey, Fall 1992. N-24Statedental   boardsrepotting theyhaveinvestigatm
         on their own staffs.



In response to our survey of the State dental boards, 24 reported that they have their
own investigators to follow up on complaints or referrals received by the board
(figure 4). Among these 24, 18 indicated that their caseload increased during the prior
three years, but only 5 stated that their investigative staffing level had also increased.
Such a disparity contributes to higher caseloads per investigator and more constricted
investigatory efforts.

Whether the boards that rely on investigators in a parent department are experiencing
a similar strain in staffing support is not clear from our survey. It is more difficult to
assess investigative staffing trends for these boards because the investigators often
serve boards besides the dental board.


                                                       8

                                   Computerized Information Systems�




      FIGURE 5: TYPES OF COMPUTERIZED INFORMATION
       MAINTAINED BY STATE DENTAL BOARDS OR THEIR
     PARENTIDEPARTMENTS   ON LICENSED DENTISTS, 1992

                  j PRIOR 131SCIPLINARYACTIC)NS                               \34




                          PRIOR COMPLAINTS                        25
                  i



                          MALPRACTICE CUdMS        ,7
                  { SEITLED




                  1=
                  o	
                      I
                          ACTIONS  Y
                          OTHER ST TES


                                     10
                                       7



                                                 20
                                    NUMBER OF BOARDS/PARENT
                                                                         30
                                                                       DEPARTMENTS
                                                                                      40


           Sourcxx OIG mail survey, Fall 1992. N -44 States report having computerized informationon licensed
           dentiat~ 43 States responded to the survey question.

Most dental boards (34 of 48 reporting) can turn to a computerized file that they or
their parent department maintains to determine if they have taken prior disciplinary
action against that dentist (figure 5), But for other types of information pertinent to
an investigation, fewer boards are likely to have this opportunity. Twenty-five of the
48 can look to an in-house computerized file to determine if any prior complaints have
been lodged against the dentist, 17 to learn if there have been settled malpractice
claims involving the dentist, and only 7 to find out if any other State has taken
disciplinary action against the dentist.

With some effort, such information can almost always be obtained by the inquiring
board. But its lack of ready availability adds to the cost and time of an investigation
and ultimately impedes the effectiveness of a board.


                                                        9
          FIGURE 6: STATE DENTAL BOARDS’ USE OF DISCIPLINARY
                              ACTION CLEARINGHOUSES, 1992

                      REVIEWED THE MONTHLY AADE DISCIPUNARY          REPORTS FOR
                                                                                         37
                      DENTISTS UCENSED IN STATE




                      REQUESTED INFORMATION FROM AADE
                                                                23
                      FOR NAMED DENTISTS




                                                       I
                      REQUESTED INFORMATION FROM
                                                           19
                      NPDB FOR NAMED DENTISTS


                                                                                               t
                                      10                   20             30                  40
                                             NUMBER OF BOARDS
          Sourw OIG mailsurvey,Fall 1992. N -43 States. (Each state didnot respondto each of the three
          questionsposed.) AADE - AmericanAssociation01DentalExaminers. NPDB - NationalPrac$itloner
          Data Bank.

Nearly all of the dental boards that addressed the pertinent question in our survey
(37 of 41), reported that they reviewed the monthly reports that the AADE sends
them on dentists licensed in their States (figure 6). But during the past year, only 23
indicated that they made any name requests of the AADE and only 19 of the NPDP.

The $6 ($10 for paper queries) accessing fee charged by the NPDP may have some
effect in limiting the boards’ readiness to make name requests of it. Why they may
also be disinclined to make such inquiry of the AADE clearinghouse, which is
available free of cost for the first 100 queries in a year, is less clear.


                                                      10
                                                 Dkciplinq           Actions�




                  FIGURE 7: RATE OF DISCIPLINARY ACTIONS BY STATE
                     DENTAL AND MEDICAL BOARDS, 9/1/90 - 8/31/92




                             b                  lb                  20                 4)                  4)
                                      NUMBER OF ACTIONS PER 1000 ACTIVE PRACTITIONERS
              Scurces     For denflsts - National Practltkner Datn Bank Ilcenaum acilons reported by Sfata dental
              boards for 9/1/90 - 3/31/92 and lhe American Dental AsaodaUon, IWl,      1992 RktdbWm     9f Ran!&la
              imihaL!niied Si@eshy E@c)naod       S!ata. Forpt@Asms-NaUona
                                                                     lPracWonerDataBank,Bce
                                                                                         nawe
              acdons mportad by Stefe medkai boards for9/1/90.      6/31/92 and The Federatbn of S@ta Medbl
              Boards, ~            1992-1993   adltlon. N - SO Stataa.




The number of disciplinary actions taken by dental boards during the September 1,
1990 to August 31, 1992 period varied greatly; at one extreme five boards took no
such actions and at the other 5 took 12 or more.10 Overall, the median was 6.41 and
the average 7.0. This compares with 6.65 and 8.94 for medical boards (figure 7).
Thus dentists were somewhat less likely to be disciplined by licensure boards than
were physicians, even though, as we noted earlier, dental boards may be a more
important front line of protection for consumers than are medical boards.

It would be inappropriate to suggest that there is any proper number of disciplinary
actions for a board or to overemphasize their importance as an indicator of a board’s
capacity or effectiveness. Yet it would also be inappropriate to ignore this factor. In
this context, it is well to note that in a report on medical boards, the American
Association of Retired Persons advised that the simplest way to determine how well a
board is performing is to determine how many disciplinary actions it is taking.ll


                                                               11�
                             CONCLUSION�

The stimulus for this report was our prior finding that State dental board officials were
often reluctant to license out-of-State dentists because of concerns about the capacity
and readiness of many of their counterpart boards to carry out their disciplinary
responsibilities. The information presented in this report supports their concerns, but
its significance goes beyond the licensure of out-of-State dentists to the more basic
issue of providing adequate protection to the consumers of dental services in all the
States.

Given that the licensure and discipline of dentists is essentially a State responsibility, it
is the State boards and the State governments of which they are a part that must take
the lead if the limitations identified in this report are to be addressed. Those
limitations affect the boards’ capacity to identify dentists warranting investigation, to
conduct thorough investigations that will facilitate responsible decision making about
how a board should proceed with a case, and, when, necessary to take disciplinary and
corrective action that will protect the public and be fair to the dentist involved.

The Federal government, as indicated at the outset of this report, has a considerable
interest in how the States address the limitations of their dental boards. In this
context, one important way in which the Public Health Service (PHS) might help the
State boards, but still respect the primacy of their role, is to extend some financial
support for the development of a self-assessment instrument for the boards. Such an
instrument, if developed by representatives of dental boards, could serve as an
important stimulus for boards to develop consensus on key indicators of their
performance, to collect data in accord those indicators, and then to compare the
results over time and even across States.

The PHS, through the Agency for Health Care Policy and Research (AHCPR), has
funded The Federation of State Medical Boards to develop a self assessment
instrument for State medical boards, with notable success. *2 Similar support whether
through AHCPR or the Bureau of Health Professions, oriented to dental boards, the
only other State licensing boards mandated to report their disciplinary actions to the
National Practitioner Data Bank, could build upon the prior project and have similar
benefits.




                                              12

                           APPENDIX                 A

                                      NOTES


1.   Suzanne W. Letsch, Helen C. Lazenby, Katherine R. Levit, and Cathy
     A. Cowan, “National Health Expenditures, 1991,” Health Care Financing
     Review 14 (Winter 1992): 29. Federal Medicare expenditures for dental
     services are only a few million dollars a year as they are limited to
     surgery related to the jaw or facial bone.

2.   See Letsch, et al., p. 29.

3.   U.S. Department of Commerce, Bureau of the Census, Stat&ical
     Abstract of the United States, 1992, Table 160, p. 109. Based on data
     supplied by the American Dental Association, Bureau of Economic and
     Behavioral Research.

4.   U.S. Department of Health and Human Services, Public Health Service,
     Healthy People: National Health l+omotion and Disease Prevention
     Objectives, DHHS Publication No. (PHS) 91-50212, 1991, p. 350.

5.   Ibid., pp. 352-61.


6.   In particular, see “State Medical Boards and Quality-of-Care Cases: Promising

     Approaches,” OEI-01-92-00050, February 1993; “Performance Indicators,

     Annual Reports, and State Medical Discipline: A State-by-State Review,” OEI-

     01-89-00563, July 1991; “State Licensure and Discipline of Dentists,” 0AI-Ol-88-

     00580, August 1988; and “Medical Licensure and Discipline: An Overview,”

     P-01-86-00064, June 1986.


7.   See, for examples, American Medical Association, Physician Competence: Whose�
     Responsibility: Conference Proceedings, April 7-9, 1988; U.S. Department of

     Health and Human Services, Public Health Service, Agency for Health Care

     Policy and Research, issues in Medical Liability: A Working Conference, Mary L.

     Grady and Randie A. Siegel, eds., 1991; and U.S. Congress, Office of

     Technology Assessment, The Quality of Medical Care: Information for�
     Consumers, OTA-H-386 (Washington, DC: U.S. Government Printing Office,

     June 1988).


8.   See EH O’Neil, Health Professions Education for the Future: Schools in Service�
     to the Nation (San Francisco: Pew Health Professions Commission, 1993), 51. A

     major reason for dentists being subject to lesser oversight is that about 69

     percent of them conduct solo practices. See American Dental Association, me





                                       A-1

       1991 Survey of Dental Practice: General Characteristics of Dentists, April 1992, p.
       2.

9.	    See Federation of State Medical Boards, Elements of a Modem State Medical
       Board: A Proposal, 1989, p. 3.

10.	   In a recent article, Damiano et al. also reported significant variations
       among the States in disciplinary actions and among State professional
       associations in peer review actions. Such variations, they concluded
       “suggest the need for modifications to improve the licensure and
       disciplinary process to ensure performance in accord with accepted
       professional standards.” See Peter C. Damiano, Daniel A. Shugass, and
       James R. Freed, “Assessing Quality in Dentistry: Dental Boards, peer
       Review Vary on Disciplinary Actions, Journal of the American Dental
       Association 124 (May 1993): 130.

11.	   See American Association of Retired Persons, E&ective Physician Overnight:
       Prescription for Medical Licensing Board Reform, 1987.

12.	   A task force of the Federation of State Medical Boards developed a
       lengthy self-assessment instrument which it sent to all State medical
       boards for comment and then, upon revision, for their own use. Many
       State boards have completed the assessment instrument and have sent in
       their results to the Federation. The Federation, upon the receipt of
       such results, enters the data into a common data base incorporating the
       information submitted by all boards. It then returns information back to
       the State boards in a manner which allows them to compare their results
       with those of other States. At the annual meeting of the Federation,
       held in April 1993, many board representatives reported that the self-
       assessment instrument and process associated with completing it were
       helping in identifying ways of improving their boards’ capacity.




                                           A-2

